                 The Internal Revenue Service’s Federal
                 Financial Management Improvement Act
                Remediation Plan as of December 31, 2003

                                    March 2004

                       Reference Number: 2004-10-080




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                  DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       March 30, 2004



       MEMORANDUM FOR CHIEF FINANCIAL OFFICER


       FROM:                           Gordon C. Milbourn III
                                       Acting Deputy Inspector General for Audit

       SUBJECT:                        Final Audit Report - The Internal Revenue Service’s Federal
                                       Financial Management Improvement Act Remediation Plan as of
                                       December 31, 2003 (Audit # 200410004)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       Federal Financial Management Improvement Act of 1996 (FFMIA)1 Remediation Plan as
       of December 31, 2003. The overall objective of this review was to identify any
       instances and reasons for missed intermediate target dates established in the IRS
       FFMIA remediation plan. We also evaluated whether the IRS was meeting its
       responsibilities in fulfilling the intent of the FFMIA. The review was performed to meet
       our requirement under the FFMIA that states, in general, each Inspector General shall
       report to the Congress instances and reasons when an agency has not met the
       intermediate target dates established in the remediation plan.
       In summary, our review of 70 remedial actions open as of December 31, 2003, showed
       4 intermediate target dates were missed, 36 dates were extended, and 2 dates were not
       established. We believe the missed, extended, or not established intermediate target
       dates further hinder the IRS’ ability to timely resolve the reported issues which caused,
       and continue to cause, its noncompliance with the FFMIA.
       Also, all 70 remedial actions had intermediate target dates that extend longer than
       3 years from the initial reporting of the financial weakness. As a result and as required,
       the IRS, through the Department of the Treasury, properly obtained Office of
       Management and Budget (OMB) concurrence for these remedial actions and continues
       to hold quarterly status review sessions with the OMB on the progress being made as
       outlined in the concurrence memorandum.

       1
           Pub. L. No. 104-208, 110 Stat. 3009.
                                                     2

Our analysis of individual project resources listed in the December 31, 2003,
remediation plan showed that, for the most part, project resources were verifiable to
supporting documentation; however, not all project releases had resources listed, and
some project costs had not been updated to reflect current cost information. Further,
one resource discrepancy identified in our prior audit2 had not been updated. Based on
these conditions, we believe the IRS is facing a significant challenge pertaining to
remediation plan resource identification and reporting because of the delays and
revisions to the plans of the individual financial management projects that are listed in
the remediation plan. Without having fully planned project milestones, the IRS will be
unable to accurately and consistently estimate the resource needs for specific remedial
actions as listed in its remediation plan.
Finally, and notwithstanding the one resource reporting discrepancy outlined above, we
believe the IRS implemented sufficient corrective actions to ensure resources are
supported and consistently reported in its remediation plans.
We do not have any specific remediation plan recommendations to offer as a result of
our analysis during this audit. However, we do believe the IRS, in fulfilling its
responsibilities under the FFMIA, needs to actively address, and continue to
communicate to the OMB and the Department of the Treasury, the challenges it faces
concerning the establishment of accurate and consistent intermediate target dates and
resource estimates in light of the uncertainty of the implementation environment of
certain significant IRS financial management projects.
Management’s Response: Management agreed with the reported conditions and will
communicate and work closely with the OMB and the Department of the Treasury as
they work toward establishing accurate and consistent intermediate target dates and
resource estimates. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers who are affected by the
report findings. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




2
 The Internal Revenue Service’s Federal Financial Management Improvement Act Remediation Plan as of
December 31, 2002 (Reference Number 2003-10-079, dated March 2003).
     The Internal Revenue Service’s Federal Financial Management Improvement Act
                       Remediation Plan as of December 31, 2003




                                              Table of Contents


Background ............................................................................................... Page 1
Intermediate Target Dates Were Missed, Extended, or Not
Established ................................................................................................ Page 2
Office of Management and Budget Concurrence Was Received
for Target Dates Extending Longer Than 3 Years ..................................... Page 5
Listed Remediation Plan Resources Were Verifiable to Supporting
Documentation, but Not All Resources Were Listed.................................. Page 6
Corrective Action Was Taken on a Prior Audit Recommendation.............. Page 7
Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 9
Appendix II – Major Contributors to This Report........................................ Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Financial Management Remedial Action Projects .............. Page 12
Appendix V – Management’s Response to the Draft Report ..................... Page 14
     The Internal Revenue Service’s Federal Financial Management Improvement Act
                       Remediation Plan as of December 31, 2003

                                The Federal Financial Management Improvement Act of
Background
                                1996 (FFMIA)1 establishes in statute certain financial
                                management systems requirements that were already
                                established by Executive Branch policies. The FFMIA was
                                intended to advance Federal Government financial
                                management by ensuring that Federal management systems
                                can and do provide reliable, consistent disclosure of
                                financial data. Further, this disclosure should be done on a
                                basis that is uniform across the Federal Government from
                                year to year, by consistently using professionally accepted
                                accounting standards. Specifically, FFMIA § 803 (a)
                                requires each agency to implement and maintain systems
                                that comply substantially with:
                                •     Federal Government financial management system
                                      requirements.
                                •     Applicable Federal Government accounting standards.
                                •     The Government Standard General Ledger at the
                                      transaction level.
                                Auditors are required to report on agency compliance with
                                the three stated requirements as part of financial statement
                                audit reports. Agency heads are required to determine,
                                based on the audit report and other information, whether
                                their financial management systems comply with the
                                FFMIA. If the agency’s financial system does not comply,
                                the agency is required to develop remediation plans that
                                describe the resources, remedies, and intermediate target
                                dates for achieving compliance and file the plans with the
                                Office of Management and Budget (OMB).
                                In addition, FFMIA § 804 (b) requires that agency
                                Inspectors General report to the Congress instances and
                                reasons when an agency has not met the intermediate target
                                dates established in its remediation plan.
                                In the last several years, the General Accounting
                                Office (GAO) has reported numerous financial management
                                weaknesses in its audits of the Internal Revenue
                                Service’s (IRS) annual financial statements and related
                                assessments of internal control. Due to these weaknesses,


                                1
                                    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                      Page 1
      The Internal Revenue Service’s Federal Financial Management Improvement Act
                        Remediation Plan as of December 31, 2003

                                 the IRS is noncompliant with the FFMIA and is required to
                                 prepare a remediation plan.
                                 This review was performed during the period
                                 December 2003 through February 2004 at the IRS National
                                 Headquarters in the office of the Chief Financial Officer
                                 (CFO), which is responsible for monitoring and
                                 implementing the remediation plan. The audit was
                                 conducted in accordance with Government Auditing
                                 Standards. Detailed information on our objectives, scope,
                                 and methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 During Calendar Year (CY) 2003, the IRS reported it
Intermediate Target Dates
                                 cancelled 2 and added 10 remedial actions to the 104 open
Were Missed, Extended, or Not
                                 remedial actions listed in its December 31, 2002,
Established
                                 remediation plan. The two cancelled remedial actions were
                                 eliminated from the remediation plan because they did not
                                 have a significant impact on the resolution of the associated
                                 financial weakness and were considered an internal
                                 workload issue of routing work to one central location. The
                                 10 added remedial actions mainly dealt with the IRS’ trust
                                 fund recovery efforts.
                                 As a result of its Fiscal Year (FY) 2003 financial statement
                                 audit,2 the GAO did not report any additional
                                 recommendations that would have required inclusion in the
                                 IRS’ remediation plan.
                                 Also during CY 2003, the IRS reported it completed
                                 42 remedial actions, leaving 70 open remedial actions listed
                                 in its December 31, 2003, remediation plan. The IRS has
                                 initiated five significant financial management projects to
                                 facilitate the completion of these open remedial actions:
                                 •   The Integrated Financial System (IFS) – 22 remedial
                                     actions.
                                 •   The Custodial Accounting Project (CAP) – 34 remedial
                                     actions.
                                 •   The Automated Trust Fund Recovery (ATFR) System –
                                     8 remedial actions.

                                 2
                                  Financial Audit: IRS’ Fiscal Year 2003 and 2002 Financial
                                 Statements (GAO-04-126, dated November 2003).
                                                                                              Page 2
The Internal Revenue Service’s Federal Financial Management Improvement Act
                  Remediation Plan as of December 31, 2003

                           •   The Complex Interest Quality Measurement System
                               (CIQMS) – 4 remedial actions.
                           •   Security – 2 remedial actions.
                           See Appendix IV for a detailed description of each project.
                           Our detailed review of the 70 remedial actions open as of
                           December 31, 2003, showed 4 intermediate target dates
                           were missed, 36 dates were extended, and 2 dates were not
                           established.
                           Missed intermediate target dates
                           The IRS did not meet four established intermediate target
                           dates listed in its remediation plan during the fourth quarter
                           of CY 2003. All four intermediate target dates related to
                           CAP Release 1 implementation. Specifically, these dates
                           involved the completion of system development testing,
                           completion of acceptance testing, and preparation and
                           completion of system deployment.
                           Extended intermediate target dates
                           The IRS extended 36 of the 70 open remedial action
                           intermediate target dates listed in its December 31, 2003,
                           remediation plan since initial reporting. Chart 1 depicts the
                           extensions by the IRS’ five major financial management
                           projects.
                            Chart 1: Open Remedial Action Extensions Since Initial Reporting
                            Major      Open     Extended Extension Extension Extension
                            Project   Actions    Actions Frequency      Range     Average
                                                           (times)    (months)    (months)
                             IFS       22       20          1 to 4     2 to 37        9
                            CAP        34       8           1 to 4     3 to 18        8
                            ATFR        8       2           1 to 5     1 to 27       14
                           CIQMS        4       4           3 to 8     17 to 49      33
                           Security     2        2          1 to 2      3 to 5        4
                            Total      70       36           N/A         N/A         N/A
                           Source: IRS FFMIA Remediation Plans from December 1999 to
                           December 2003.

                           The IRS reported in its remediation plan that current
                           extensions of intermediate target dates were necessary due
                           to the following:



                                                                                     Page 3
The Internal Revenue Service’s Federal Financial Management Improvement Act
                  Remediation Plan as of December 31, 2003

                           •   IFS – Data mapping and mid-year system conversion
                               issues affecting data conversion and delays in system
                               integration and acceptance testing.
                           •   CAP – Development of a new implementation strategy
                               and revision of the plan to focus on specific releases,
                               which will address statutory financial reporting
                               requirements.
                           •   ATFR – System response time issues affecting the
                               timely completion of the pilot phase.
                           •   CIQMS – System incorporation with other IRS quality
                               measurement systems and staffing issues that are
                               affecting the hiring of personnel.
                           •   Security – Delays in the completion of independent
                               verification of completed actions.
                           The IRS also commented in its December 31, 2003,
                           remediation plan that it is planning to submit a request to
                           cancel all 15 IFS Release 2, 3, and 4 remedial actions and
                           all 27 CAP Release 2 and 3 remedial actions (see
                           Appendix IV for Release details). According to the
                           remediation plan, this action is being taken because both
                           projects are significantly behind schedule for their
                           respective individual first release implementations. The
                           cancelled remedial actions would be replaced by a
                           placeholder action to develop a new plan for these future
                           Releases upon successful completion of each project’s
                           Release 1 remedial actions and the final resolution of
                           funding issues. In addition, the plans to implement the
                           remaining seven IFS and seven CAP Release 1 remedial
                           actions are being revised, which will further extend the
                           target dates for the final implementation of these two
                           significant financial management projects.
                           Intermediate target dates not established
                           The IRS established intermediate target dates for 68 of the
                           70 open remedial actions listed in its December 31, 2003,
                           remediation plan. The first remedial action without an
                           established intermediate target date concerns the testing of
                           the IFS core functionality. The IRS reported this action is
                           experiencing delays in software design and configuration
                           issues that have affected the establishment of a target date.
                                                                                   Page 4
       The Internal Revenue Service’s Federal Financial Management Improvement Act
                         Remediation Plan as of December 31, 2003

                                  The second remedial action without an established
                                  intermediate target date concerns future IFS enhancements.
                                  The IRS reported this action is being reevaluated to identify
                                  the benefits that will be achieved through its
                                  implementation, as well as the sequencing of interim actions
                                  to accomplish the overall remedial action. However, it
                                  should be noted this second remedial action has no
                                  associated audit finding and was established as a
                                  placeholder in the remediation plan for a future release of
                                  the IFS.
                                  The GAO, as a result of its FY 2003 financial statement
                                  audit, continued to report that material weaknesses exist
                                  relative to the IRS’ controls over financial reporting, unpaid
                                  assessments, Federal tax revenue and refunds, and computer
                                  security. The GAO further reported these material
                                  weaknesses have given rise to significant management
                                  challenges that have:
                                  •   Impaired management’s ability to prepare financial
                                      statements and other financial information without
                                      extensive compensating procedures.
                                  •   Limited the availability of reliable information to assist
                                      management in effectively managing operations on an
                                      ongoing basis.
                                  •   Reduced the IRS’ effectiveness in enforcing the Internal
                                      Revenue Code.
                                  •   Resulted in errors in taxpayer accounts.
                                  •   Increased taxpayer burden.
                                  We believe the missed, extended, or not established
                                  intermediate target dates further hinder the IRS’ ability to
                                  timely resolve the reported issues which caused, and
                                  continue to cause, its noncompliance with the FFMIA.
                                  The FFMIA requires that a remediation plan bring an
Office of Management and
                                  agency’s financial management systems into substantial
Budget Concurrence Was
                                  compliance no later than 3 years after the date a
Received for Target Dates
                                  determination is made that the financial management
Extending Longer Than 3 Years
                                  systems do not comply with the requirements of the FFMIA
                                  unless the agency, with concurrence of the Director, OMB:


                                                                                          Page 5
       The Internal Revenue Service’s Federal Financial Management Improvement Act
                         Remediation Plan as of December 31, 2003

                                  •   Determines the agency’s financial management systems
                                      cannot comply with the requirements within 3 years.
                                  •   Specifies the most feasible date to bring the agency’s
                                      financial management systems into compliance with the
                                      requirements.
                                  •   Designates an agency official who shall be responsible
                                      for bringing the agency’s financial management systems
                                      into compliance with the requirements.
                                  All 70 open remedial actions listed in the
                                  December 31, 2003, remediation plan had intermediate
                                  target dates that extend longer than 3 years from the
                                  initial reporting of the financial weakness.
                                  On March 30, 2001, the Department of the Treasury
                                  obtained OMB concurrence for time extensions relating to
                                  the IRS’ remedial actions in excess of 3 years from the
                                  initial reporting of the financial weakness. As part of the
                                  concurrence memorandum, quarterly status review sessions
                                  on the progress being made to complete the identified
                                  remedial actions have been held with the OMB when
                                  requested.
                                  The FFMIA requires that a remediation plan describe the
Listed Remediation Plan
                                  resources required to achieve compliance with the FFMIA.
Resources Were Verifiable to
                                  The IRS chose to identify resources by the five major
Supporting Documentation, but
                                  financial management projects or applicable project releases
Not All Resources Were Listed
                                  listed in its remediation plan. Our analysis of the individual
                                  project resources listed in the December 31, 2003,
                                  remediation plan showed that, for the most part, project
                                  resources were verifiable to supporting documentation;
                                  however, not all project releases had resources listed, and
                                  some project costs had not been updated to reflect current
                                  cost information.
                                  We verified the IFS Release 1 resources to the IRS’
                                  draft Business System Modernization (BSM) Expenditure
                                  Plan as of December 2003. Resources for the IFS
                                  Releases 2 through 4 were not identified in the remediation
                                  plan because of financial revisions to the project plan.
                                  Responsible CFO personnel informed us the resources listed
                                  in the December 31, 2003, remediation plan for the CAP
                                  had not been updated since the issuance of the
                                                                                         Page 6
       The Internal Revenue Service’s Federal Financial Management Improvement Act
                         Remediation Plan as of December 31, 2003

                                  June 30, 2003, remediation plan even though the BSM
                                  Expenditure Plan was known to contain differing amounts.
                                  This decision was made within the CFO’s office because the
                                  CAP was going through a significant revision of the plan
                                  and it was determined to be better to wait for the
                                  finalized amounts rather than to list amounts in the
                                  remediation plan that most likely would change. We did
                                  perform a verification of the resources listed in the
                                  December 31, 2003, remediation plan to those exhibited in
                                  an IRS July 2003 BSM Expenditure Plan and found them
                                  verifiable, except for a $1,126,000 difference that had not
                                  been updated since our prior report3 due to an administrative
                                  oversight.
                                  For the ATFR project, we were able to verify the listed
                                  resources to the IRS’ ATFR Business Case dated
                                  January 2003. However, for the CIQMS project, we were
                                  unable to perform a verification, since no resources were
                                  listed in the December 31, 2003, remediation plan due to
                                  staffing levels being reevaluated for this project. Finally, no
                                  verification was necessary for the Security project, since the
                                  resources for this project will be absorbed by normal
                                  business practices.
                                  Due to the above conditions, we believe the IRS is facing a
                                  significant challenge pertaining to remediation plan resource
                                  identification and reporting because of the delays and
                                  revisions to the plans of the individual financial
                                  management projects that are listed in the remediation plan.
                                  Without having fully planned project milestones, the IRS
                                  will be unable to accurately and consistently estimate the
                                  resource needs for specific remedial actions as listed in its
                                  remediation plan.
                                  We previously reported4 that some resources included in the
Corrective Action Was Taken on
                                  December 31, 2002, remediation plan were not verifiable to
a Prior Audit Recommendation
                                  supporting documentation and functional areas were not
                                  consistently reporting resources shown in the remediation

                                  3
                                    The Internal Revenue Service’s Federal Financial Management
                                  Improvement Act Remediation Plan as of December 31, 2002
                                  (Reference Number 2003-10-079, dated March 2003).
                                  4
                                    The Internal Revenue Service’s Federal Financial Management
                                  Improvement Act Remediation Plan as of December 31, 2002
                                  (Reference Number 2003-10-079, dated March 2003).
                                                                                              Page 7
The Internal Revenue Service’s Federal Financial Management Improvement Act
                  Remediation Plan as of December 31, 2003

                           plan. Accordingly, we recommended procedures be issued
                           that include a process for verifying the resources included in
                           the IRS’ FFMIA remediation plan and that provide for
                           consistent reporting of such resources by the responsible
                           functions.
                           IRS management agreed with our reported recommendation
                           and responded they had enhanced and approved reporting
                           procedures to address the resource issues. Further,
                           management stated the IRS would include the enhanced
                           reporting instructions for resources with its March 14, 2003,
                           remediation plan quarterly call memorandum.
                           We confirmed that the CFO’s Office of Management
                           Controls (OMC) issued revised reporting procedures on
                           March 14, 2003. The procedures required responsible
                           officials to forward supporting documentation to verify all
                           resources being reported in the remediation plan. Further,
                           we evidenced the OMC’s receipt of supporting
                           documentation when responsible officials respond to the
                           quarterly updates to the remediation plan.
                           Notwithstanding the one resource reporting discrepancy
                           discussed in the prior section, we believe the IRS
                           implemented sufficient corrective actions to ensure
                           resources are supported and consistently reported in its
                           remediation plans.
                           We do not have any specific remediation plan
                           recommendations to offer as a result of our analysis
                           performed during this audit. However, we do believe the
                           IRS, in fulfilling its responsibilities under the FFMIA, needs
                           to actively address, and continue to communicate to the
                           OMB and the Department of the Treasury, the challenges it
                           faces concerning the establishment of accurate and
                           consistent intermediate target dates and resource estimates
                           in light of the uncertainty of the implementation
                           environment of both the IFS and the CAP financial
                           management projects.




                                                                                  Page 8
         The Internal Revenue Service’s Federal Financial Management Improvement Act
                           Remediation Plan as of December 31, 2003

                                                                                       Appendix I


                            Detailed Objectives, Scope, and Methodology

Our overall objective was to report to the Congress, as required by the Federal Financial
Management Improvement Act of 1996 (FFMIA),1 any instances and reasons for missed
intermediate target dates established in the Internal Revenue Service’s (IRS) remediation plan.
We also evaluated whether the IRS was meeting its responsibilities in fulfilling the intent of the
FFMIA. To accomplish our objectives, we:
I.         Gained an understanding of the requirements of the FFMIA, including the Office of
           Management and Budget and Department of the Treasury guidance for compliance with
           the FFMIA.
II.        Determined whether the IRS’ remediation plan was consistent with General Accounting
           Office recommendations from prior IRS financial audits and related financial
           management reports.
III.       Determined whether the IRS missed any intermediate target dates, extended any
           intermediate target dates without sufficient documentation to support the revised dates,
           and obtained proper approval for remedial actions extending longer than 3 years from the
           initial reporting of the financial weakness.
IV.        Determined whether the IRS’ remediation plan established resource needs for remedial
           actions and the resources presented were consistent with other IRS modernization
           resource budgets.
V.         Determined whether the IRS took adequate corrective actions on prior reported audit
           findings.




1
    Pub. L. No. 104-208, 110 Stat. 3009.


                                                                                            Page 9
     The Internal Revenue Service’s Federal Financial Management Improvement Act
                       Remediation Plan as of December 31, 2003

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Bobbie M. Draudt, Senior Auditor
Chinita M. Coates, Auditor




                                                                                      Page 10
     The Internal Revenue Service’s Federal Financial Management Improvement Act
                       Remediation Plan as of December 31, 2003

                                                                       Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Office of Management Controls OS:CFO:AR:M
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Audit Liaison: Chief Financial Officer OS:CFO




                                                                             Page 11
      The Internal Revenue Service’s Federal Financial Management Improvement Act
                        Remediation Plan as of December 31, 2003

                                                                                                 Appendix IV


                       Financial Management Remedial Action Projects

The Internal Revenue Service (IRS) has initiated five significant financial management remedial
action projects in response to the various General Accounting Office-identified Federal Financial
Management Improvement Act of 19961 material weaknesses. The IRS describes the
functionality of these projects in its remediation plan as follows:
The Integrated Financial System (IFS) – This project, when fully implemented over four
releases, will provide the IRS with an integrated accounting system to account for and control
resources. IFS Release 1 includes the Joint Financial Management Improvement Program
(JFMIP)2 core financial system requirements of General Ledger, Accounts Receivable, Accounts
Payable, Funds and Cost Management, and Financial Reporting, as well as Budget Formulation.
This Release will also facilitate the preparation of financial statements and reports in accordance
with Federal Government accounting and reporting standards; allow the IRS to move into
compliance with Federal Government cost accounting standards; provide information for central
agencies for budgeting, analysis, and Government-wide reporting, including consolidated
financial statements; and provide a complete audit trail and reporting tools to facilitate audits.
IFS Release 2 will focus on Asset Management and a software technical and functional upgrade.
IFS Release 3 includes the planned implementation of Procurement Management. IFS Release 4
includes the planned implementation of Performance Management. In addition, the IFS is
planned to incorporate the functionality to generate timely and reliable financial information for
custodial activities with full traceability from the financial statement to the detailed transaction.
The Custodial Accounting Project (CAP) – This project has been revised to focus on specific
releases which will address statutory financial reporting requirements and may initially benefit
operating divisions to a limited extent. It will implement a single, integrated data repository of
taxpayer account information, integrated with the general ledger and accessible for management
analysis and reporting. The total functionality of the CAP will be implemented in three releases.
CAP Release 1 relates to data of individual taxpayers, CAP Release 2 relates to business
taxpayers, and CAP Release 3 relates to the establishment of the Collection subledger.
The Automated Trust Fund Recovery (ATFR) System – This project provides the capability
to systematically upload assessments from Area Offices and properly cross-reference payments
received for assessments made. It replaces manual processes and ensures compliance with
requirements and accounting standards. The ATFR Phase I will automate the calculation of the



1
  Pub. L. No. 104-208, 110 Stat. 3009.
2
  The JFMIP is a joint undertaking of the United States Department of the Treasury, the General Accounting Office,
the Office of Management and Budget, and the Office of Personnel Management, working in cooperation with each
other and other agencies to improve financial management practices in the Federal Government.
                                                                                                          Page 12
      The Internal Revenue Service’s Federal Financial Management Improvement Act
                        Remediation Plan as of December 31, 2003

penalties and assessment process, Phase II will automate the cross-referencing process, and
Phase III will centralize all recovery cases into one compliance center.
The Complex Interest Quality Measurement System – This project initiates a review process
to reduce errors in calculating interest, develops a database to monitor and measure accuracy,
and implements a software package to provide functionality and automate net rate interest
adjustments as well as all other necessary interest computations.
Security – This project addresses internal control deficiencies cited in various audits; initiates
efforts to expand deterrent controls implemented at campuses,3 field offices, and post-of-duty
offices to ensure uniformity and consistency; develops appropriate means through which the IRS
can carry out periodic reviews of the effectiveness of policies and procedures, along with the
means to address security breaches; updates access control standards to reflect changes in
technology and operating environments; provides computer security training to personnel; and
conducts computer security self-assessment reviews that identify and reduce vulnerabilities on a
proactive basis.




3
 These offices represent the data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
                                                                                                            Page 13
The Internal Revenue Service’s Federal Financial Management Improvement Act
                  Remediation Plan as of December 31, 2003

                                                                   Appendix V


              Management’s Response to the Draft Report




                                                                        Page 14
